CONCLUSION
For the foregoing reasons it is respectfully requested the Supreme Court grant
this petition of certiorari.
Respectfully Submitted

loe-uttyf. aeAttr
Leroy E./Scott 10/29/20

PROOF OF SERVICE
I, Leroy E. Scott, do swear or declare that on 29th day of October, 2020 as required
by Supreme Court Rule 29, I served the enclosed and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding, or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above document in the United States mail properly addressed to each of them and
with first-class postage prepaid. The names and addresses of those served are as
follows:
MATTHEW D. WEIDNER
250 Mirror Lake Drive North
St. Petersburg, FL 33701

BRADLEY S, TENNANT
P. 0. Box 2842
St. Petersburg, FL. 33731-2842

Counsel for Plaintiff

Assistant City Attorney

Leroy E. Scott 10/29/20

29

